No, 19-1252

Su the Supreme Court of the Anited States

CALLAN CAMPBELL, KEVIN C. CHADWICK (INDIVIDUALLY AND THROUGH HIS COURT-
APPOINTED ADMINISTRATORS, JAMES H. CHADWICK), JUDITH STRODE CHADWICK, THE
TYLER JUNSO ESTATE (THROUGH KEVIN JUNSO, ITS PERSONAL REPRESENTATIVE), NIKI

JUNSO, AND KEVIN JUNSO, ALL ON THEIR OWN BEHALF AND ON BEHALF OF A CLASS OF
ALL OTHERS SIMILARLY SITUATED,
Petitioners,

v.

UNITED STATES
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Federal Circuit

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5(b), I certify that on June 8, 2020, I caused
to be served, via United States Mail, first class, postage prepaid, the CORRECTED
MOTION TO FILE AS AMICUS CURIAE AND BRIEF AMICUS CURIAE OF
CENTER FOR AUTO SAFETY in the above-captioned case on the following:

Robert H. Thomas Noel J. Francisco

Counsel of Record Solicitor General

DAMON KEY LEONG United States Department of Justice
KUPCHAK HASTERT 950 Pennsylvania Avenue, NW

1003 Bishop Street Washington, DC 20530-0001

16th Floor 202-514-2217

Honolulu, Hawaii 96813
(808) 531-8031

I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 8, 2020.

 

WILLIAM T. DEVINN
BAKERHOSTETLER LLP

1050 Connecticut Ave., NW
Washington, DC 20036

(202) 861-1554
wdevinney@bakerlaw.com

Counsel of Record for Amicus Curiae
